OIG Audit Report 99-23
Immigration and Naturalization Service and the Executive Officefor Immigration Review Affirmative Asylum Program
Report No. 99-23July 1999Office of the Inspector General
EXECUTIVE SUMMARY
The asylum program is administered by Immigration and Naturalization Service (INS) asylum officers and Executive Office for Immigration Review (EOIR) immigration judges.  In FY 1996, the asylum program processed about 124,000 asylum claims at a cost of over $76 million to INS and EOIR.
The asylum program allows aliens legally or illegally in this country to apply to INS for asylum.  To be granted asylum, aliens must demonstrate a well-founded fear of persecution in their home country because of race, religion, nationality, political opinion, or membership in a social group.
Asylum cases are referred to as either affirmative or defensive cases.  Affirmative cases are those in which aliens who are not in removal proceedings initiate asylum applications to INS.  Defensive cases are those in which aliens against whom removal proceedings have begun seek to "defend" against or avoid the removal by applying for asylum.  Defensive asylum applications are filed directly with EOIR.
In 1994, the Department of Justice (DOJ) implemented major reform efforts to address the increasing backlog of asylum cases and public concerns over abuse of the asylum program.  These reform efforts culminated in new asylum regulations that were published in December 1994 and made effective in 1995.
We found that the 1995 asylum reforms resulted in more timely case completions and significantly reduced the increasing trend of backlogged asylum cases.  However, while the new asylum regulations streamlined procedures and promoted efficiency, they did little to build in necessary protections and mechanisms to maintain quality control.
For example, we found possible outcome determinative deficiencies in 9 percent of the asylum officer assessments, and technical deficiencies in another 22 percent of the assessments.
We also found that INS was not successful in deporting applicants denied asylum.  Of the 69,594 denied asylum seekers who were issued deportation orders from FYs 1993 to 1996, only 6,516 (9.4 percent) were actually deported, according to INS records.  In addition, INS did not ensure that the identities of asylum applicants were firmly established through fingerprinting and FBI records checks.  As a result, the overall credibility of the affirmative asylum program was seriously undermined.
The details of our work are contained in the Findings and Recommendations section of this report.  Our Objectives, Scope, and Methodology are contained in Appendix II.